           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  RETROACTIVE TITLE II PAYMENTS TO
        RELEASED PRISONERS


    July 2010        A-06-08-38081




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                         SOCIAL SECURITY
MEMORANDUM

Date:      July 14, 2010                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Retroactive Title II Payments to Released Prisoners (A-06-08-38081)


           OBJECTIVE
           Our objective was to determine whether beneficiaries, shown in the Social Security
           Administration’s (SSA) records as having been convicted of a criminal offense and
           confined to a penal or mental institution, were eligible for retroactive Old-Age, Survivors
           and Disability Insurance (OASDI) payments they received after their release date.

           BACKGROUND
           Subject to certain conditions, SSA suspends OASDI payments to beneficiaries confined
           to correctional institutions because they were convicted of a criminal offense or were
           confined to mental institutions because they were found not guilty of a criminal offense
           by reason of insanity or other mental condition. 1 SSA will reinstate benefits after a
           beneficiary has been officially released because of completion of a sentence, parole, or
           pardon.

           The Prisoner Update Processing System (PUPS) records inmate information. When an
           inmate’s Social Security number (SSN) is entered into PUPS, SSA verifies the SSN and
           determines whether the individual is receiving benefits using the Master Beneficiary and
           Supplemental Security Records. If SSA determines the prisoner is receiving benefits, a
           PUPS indicator is added to the payment record, and benefits are suspended during the
           period of incarceration.

           A recent Office of the Inspector General investigation involved a field office employee
           who fraudulently issued over $13,000 in retroactive OASDI benefits to an individual
           shortly after her release from prison. The individual served approximately
           12 consecutive months in prison and was ineligible to receive benefits during the period
           of incarceration. SSA correctly suspended the OASDI benefits during most of the
           confinement period. However, the field office employee altered the prison release date
           1
            SSA, Program Operations Manual System (POMS) GN 02607.001.A, Title II Prisoner and Other Inmate
           Suspension Provisions.
Page 2 - The Commissioner


in PUPS to provide the false appearance that the individual was released from prison
the same day she was incarcerated. This transaction removed the benefit suspension
and incorrectly prompted the payment system to issue a retroactive lump sum payment
equal to the amount of previously suspended benefits.

To determine whether other retroactive payments to released prisoners were paid
incorrectly, we obtained SSA data identifying 1,640 retroactive payment transactions in
amounts of $10,000 or higher that beneficiaries received after a prison release date
recorded in PUPS. SSA issued these payments—totaling over $25 million—between
October 2004 and September 2008. Our audit focused on the appropriateness of a
random sample of 100 of these retroactive payments. See Appendix B for a discussion
of our scope and methodology and Appendix C for our sampling methodology and
results.

RESULTS OF REVIEW
SSA improperly issued retroactive payments to beneficiaries after their release from
prison. In 15 of 100 transactions reviewed, SSA personnel issued payments totaling
$258,408 that released prisoners were not entitled to receive. Further, in another 36 of
100 transactions reviewed, SSA personnel authorized the retroactive payments totaling
$549,188 without providing any documentation that explained or justified the payment.

                  Review of 100 Retroactive Payments to Released Prisoners




                                                                      Payment Validity
                                                                        Established
                                                                           (49%)




    Payment Not
     Supported
       (36%)
                                                                Improper
                                                                Payments
                                                                  (15%)




Based on our sample results, we estimate SSA issued approximately $3.8 million in
retroactive payments that released prisoners were not entitled to receive. We also
estimate that SSA issued approximately $6.5 million in additional retroactive payments
that could not be explained or justified based on the documentation provided.
Page 3 - The Commissioner


Most of these payments involved complicating factors that made establishing
entitlement to the payment confusing for even highly trained SSA staff. For example,
the retroactive payment transactions could involve multiple periods of incarceration,
both OASDI and Supplemental Security Income payments, various other benefit offsets,
and/or claims of identity fraud or mistaken identity.

SSA requires that field office personnel document circumstances related to incorrect
prisoner benefit suspensions. 2 However, SSA’s systems allowed personnel to issue
large retroactive payments without explanation or justification. We forwarded the
improper and unsubstantiated payments identified during our review to applicable SSA
Regional Center for Security and Integrity (CSI) staff for review. CSI staff and/or other
regional staff generally agreed with our conclusions regarding the validity of these
transactions. Lack of sufficient controls over these payments increases the potential for
fraud, waste, or abuse.

IMPROPER RETROACTIVE PAYMENTS TO RELEASED PRISONERS

SSA improperly issued retroactive payments to beneficiaries after their release from
prison. We reviewed a sample of 100 payment transactions and determined that, in
15 instances, SSA personnel authorized large retroactive payments the beneficiary was
not entitled to receive. Examples follow.

•     In September 2007, SSA issued a $140,189 payment to a Pomona, California,
      beneficiary who was released from prison in November 2004. As part of its Special
      Disability Workload (SDW), 3 SSA determined the man was due retroactive OASDI
      disability benefits 4 covering the period December 1977 through August 2007.
      However, SSA payment records indicated the man was not entitled to the retroactive
      payment because, since 1977, SSA had paid him OASDI child disability benefits
      under his father’s earnings record. The OASDI benefits already paid should have
      been offset against any amount due because of SDW. However, it appeared the
      Philadelphia Payment Service Center did not consider these benefit payments when
      it computed retroactive benefits payable under SDW. Philadelphia Payment Service
      Center staff could not locate documentation to indicate how this payment amount
      was calculated and acknowledged it appeared the calculation did not consider the
      disability benefits already paid to the released prisoner. SSA payment records
      indicate the individual did not cash either of the retroactive benefit checks, likely

2
    POMS, GN 02607.870 Processing a Resumption Action for an Incorrect Title II Benefit Suspension.
3
  SSA identified a group of Supplemental Security Income disabled recipients, who appeared to be
insured for, but were not receiving, OASDI disability benefits and conducted outreach to these individuals.
4
  The Philadelphia Payment Service Center determined the individual was due $140,189 in retroactive
benefits. However, because the amount was so large, SSA divided the lump-sum into two separate
payments of $70,094 and $70,095. The $70,094 payment was selected as part of our random sample.
SSA issued these payments primarily as a result of factors unrelated to the beneficiary’s incarceration. In
the remaining cases discussed in the report, periods of reported incarceration were the primary factor
contributing to issuance of the improper or questionable payments.
Page 4 - The Commissioner


      because he had been incarcerated four additional times since September 2007.
      Unless SSA takes appropriate action to adjust this individual’s payment record, the
      improper payments could be re-issued.

•     In November 2005, SSA issued a $13,946 payment to the representative payee of a
      Texas beneficiary who was confined in a Missouri mental hospital in
      December 2004. SSA correctly suspended benefit payments to this individual in
      2004 based on notification of the beneficiary’s confinement. However, in
      November 2005, it appeared the prisoner’s representative payee visited an SSA field
      office and claimed the beneficiary was released from the mental hospital in
      December 2004. For some unknown reason, it appeared an SSA employee
      accepted the representative payee’s assertion without verification. The employee
      altered the PUPS prison release date to match the prisoner’s incarceration date.
      This action caused the payment system to issue the representative payee a
      $13,946 retroactive payment equal to the amount of benefits suspended since
      December 2004. We contacted the Missouri mental hospital that reported the
      beneficiary’s December 2004 confinement. Hospital officials confirmed the
      beneficiary was incarcerated in December 2004 and remained in custody until her
      release in November 2005. Acceptance of the representative payee’s assertion
      without verification and input of the erroneous release date in PUPS resulted in a
      $13,946 improper payment. Dallas Region staff reviewed this transaction and
      agreed the retroactive payment was improper.

•     In August and September 2004, SSA issued two retroactive payments totaling
      $21,464 to a Missouri beneficiary who was incarcerated in a Federal prison in
      July 2003. SSA’s records established this individual was not entitled to either
      retroactive payment and contained no indication why the payments were authorized.
      Further, SSA improperly paid disability benefits to the individual the entire time he
      was incarcerated. In August 2004, SSA established a $20,617 overpayment on the
      beneficiary’s record to recover improper disability payments issued while the
      individual was in prison. It appeared that, in October 2004, someone altered the
      prison release date in PUPS to show the beneficiary was incarcerated and released
      the same day. This transaction resulted in the issuance of a third improper
      retroactive payment totaling $12,028, which the system applied against the
      beneficiary’s overpayment. 5 Kansas City Region and Mid-America Processing
      Center staff reviewed these transactions and agreed the retroactive payments were
      improper.

Based on our sample results, we estimate that SSA issued approximately $3.8 million in
retroactive payments that released prisoners were not entitled to receive.




5
    The beneficiary died in January 2006 and SSA adjusted (wrote-off) the balance of the overpayment.
Page 5 - The Commissioner


UNSUPPORTED RETROACTIVE PAYMENTS TO RELEASED PRISONERS

SSA personnel authorized large retroactive payments, but did not provide
documentation or explanation to support the payments. Of our 100 sampled
transactions, SSA did not provide documentation to substantiate 36 retroactive
payments. For example:

•   In March 2008, SSA issued a New York beneficiary a $24,594 retroactive OASDI
    disability benefit payment. SSA issued the payment as the result of a favorable
    disability determination that made the individual eligible for disability benefits dating
    from February 2006. However, SSA’s records indicate the individual was
    incarcerated in Federal prison on April 11, 2006, making him ineligible to receive
    benefits during most of this retroactive period. Without explanation, an SSA
    employee altered the prison release date in PUPS to make it appear the man was
    released from prison on April 11, 2006. This input caused the payment system to
    issue the large retroactive payment.

•   In January 2005, SSA awarded a $28,676 retroactive payment to a California
    beneficiary. SSA’s records indicate that, in November 2004, the Agency received a
    PUPS report that the beneficiary was incarcerated by the Missouri Department of
    Corrections on August 8, 2002. An SSA employee subsequently contacted the
    Missouri Department of Corrections and input a remark in PUPS that stated,
    “Beneficiary has been in custody since 08/08/02 and not yet released with a
    sentence of more than one year certified by [name removed] 11/23/04.” As a result
    of this verification, SSA determined benefits electronically deposited into this
    beneficiary’s bank account since August 2002 were improper and established a
    $28,676 overpayment on the beneficiary’s payment record. Without explanation, in
    January 2005, an SSA employee altered the prison release date to show the
    prisoner was released from custody on August 8, 2002. This input restored the
    suspended benefits and caused the payment system to issue the $28,676 payment,
    which then offset the overpayment.

•   In October 2008, SSA issued a $13,775 retroactive payment to a Florida beneficiary.
    SSA had previously suspended disability benefit payments to this individual because
    he served multiple periods of incarceration since July 2006, and because he was a
    fugitive felon from May 2007 through March 2008. Without explanation, SSA
    authorized the retroactive payment to restore the previously suspended benefits.

It is possible that unique facts or circumstances existed in these cases that may have
justified some or all of the retroactive payments. However, absent documentation which
explains these facts or circumstances, each of these payments are questionable.
Based on our sample results, we estimate that SSA issued approximately $6.5 million in
questionable retroactive payments that could not be explained or justified based on
available documentation.
Page 6 - The Commissioner


Payment Controls

Imprisonment is just one of several factors that can affect an individual’s entitlement to
OASDI benefits. Determining whether an individual is entitled to retroactive benefits
covering prior months or years requires implementation of effective controls that ensure
retroactive payments are valid and appropriate. However, our audit results indicate that
SSA employees authorized large retroactive payments incorrectly and/or provided no
documentation to explain or justify these payments. In addition, PUPS allowed SSA
employees to restore benefits, suspended as the result of imprisonment, by simply
altering the prison release date. PUPS accepted these inputs without the need for
co-worker or supervisor review or approval.

CONCLUSION AND RECOMMENDATIONS
SSA issued improper or questionable retroactive payments to beneficiaries after their
release from prison. About half the retroactive payment transactions of $10,000 or
more we reviewed were either improper or issued without any explanation or
justification being documented. SSA did not establish sufficient controls to ensure large
retroactive payments to released prisoners were valid. Specifically, SSA payment
systems allowed SSA personnel to compute and issue large retroactive payments
without explanation or justification and without supervisory review. The lack of sufficient
controls over these payments increased the potential for fraud, waste, or abuse. Based
on our sample results, we estimate that SSA issued approximately $10.3 million in
retroactive payments to prisoners that were either incorrect or could not be explained
based on available documentation. As a result, we recommend SSA:

1. Take appropriate action (suspend benefits, recover improper payments, or refer
   potential instances of fraud to the Office of Investigations) for the 15 retroactive
   payments determined to be improper.
2. Establish controls to ensure employees explain and justify large retroactive
   payments issued to released prisoners. At a minimum, SSA employees should
   document circumstances that resulted in the underpayment, describe evidence
   reviewed or obtained to substantiate beneficiary assertions, and provide detailed
   information indicating how the payment amount was computed.
3. Establish a payment threshold amount above which an SSA employee must obtain
   supervisory approval before issuing the large retroactive payment.

AGENCY COMMENTS
SSA agreed with our recommendations. SSA’s comments are included in Appendix D.




                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
CSI     Center for Security and Integrity
OASDI   Old-Age, Survivors and Disability Insurance
POMS    Program Operations Manual System
PUPS    Prisoner Update Processing System
SDW     Special Disability Workload
SSA     Social Security Administration
SSN     Social Security Number
                                                                                  Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Researched the Social Security Administration’s (SSA) regulations, policies, and
    procedures related to prisoner benefit suspension.

•   Obtained data from the Payment History Update System identifying 1,640 retroactive
    Old-Age, Survivors and Disability Insurance payment transactions in amounts of
    $10,000 or more that SSA issued between October 2004 and September 2008 to
    beneficiaries 1 after a prison release date was recorded in the Prisoner Update
    Processing System (PUPS). The payment transactions totaled $25,291,851.

•   Analyzed the retroactive payment data and divided the transactions into two
    sampling populations.

     103 transactions where the confinement and release dates recorded on the
      beneficiaries’ PUPS record matched. We reviewed these transactions separately
      because the matching dates indicated that field office staff may have processed
      a transaction to override the release date reported in PUPS. An Office of
      Investigations case determined an SSA employee used this type of transaction to
      fraudulently issue payments to a released prisoner.

     1,537 transactions remaining in our population.

•   We randomly selected 50 transactions from each group for detailed review. For
    each sampled case, we

     determined whether the initial benefit suspension and subsequent benefit
      reinstatement were justified,

     determined whether documentation existed to support the retroactive payment
      amount, and

     reviewed any related overpayment transactions appearing on the beneficiaries’
      payment records.

•   Worked with applicable Regional Centers for Security and Integrity staff regarding
    discrepancies identified during our audit.



1
  We excluded transactions involving child beneficiaries because prisoner suspension rules do not
typically apply to minors.


                                                  B-1
We performed our review from December 2008 through December 2009 in Dallas,
Texas. We determined the data used for this audit were sufficiently reliable to meet our
objective. The entities audited were the Office of Income Security Programs under the
Deputy Commissioner for Retirement and Disability Policy, and the Office of Central
Operations under the Deputy Commissioner for Operations. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.




                                          B-2
                                                              Appendix C

Sampling Methodology and Results
We selected a random sample of 100 retroactive Old-Age, Survivors and
Disability Insurance payment transactions in amounts of $10,000 or more that the
Social Security Administration issued from October 2004 through September
2008 to beneficiaries after the prison release date recorded in the Prisoner
Update Processing System (PUPS). We separated the transactions into two
groups—payment transactions where the confinement and release dates
recorded on the beneficiaries’ PUPS record matched and payment transactions
where the confinement and release dates recorded on the beneficiaries’ PUPS
record did not match. We sampled 50 transactions from each group. The first
group included 103 transactions totaling $1,718,836, and the second group
included 1,537 transactions totaling $23,573,015.

          RETROACTIVE PAYMENT TRANSACTIONS $10,000 OR HIGHER
            ISSUED AFTER BENEFICIARY’S RELEASE FROM PRISON
                      FISCAL YEARS 2005 THROUGH 2008
                                         Number of     Dollar    Sample
                 Group                  Transactions  Amount      Size
 Group 1: Confinement and Release Dates      103      $1,718,836     50
 Matched
 Group 2: Confinement and Release Dates    1,537     $23,573,015     50
 did not Match
  Total                                    1,640     $25,291,851   100

IMPROPER PAYMENTS
Group 1 – Confinement and Release Dates Matched

Of the 50 payment transactions in our sample, 5 payment transactions, totaling
$142,768, were improper. Employing a straight-line estimation methodology, we
estimate that, within this group, approximately 10 payment transactions totaling
about $285,536 were improper.

Group 2 – Confinement and Release Dates did not Match

Of the 50 payment transactions in our sample, 10 transactions totaling $115,640
were improper. Based on our sample results, we estimate that, within this group,
approximately 307 payments totaling about $3,554,771 were improper.




                                      C-1
                                                             Number of
                Improper Payments                                             Dollar Amount
                                                            Transactions
 Identified in Sample                                            10              $115,640
 Projection of Improper Payments in Population:
 Point Estimate                                                 307            $3,554,771
 Projection at Lower Limit                                      176            $5,560,508
 Projection at Upper Limit                                      482            $1,549,033
All projections are at the 90-percent confidence level.

Summary – Improper Payments

Of the 100 payment transaction sample items reviewed from both groups,
15 payment transactions totaling $258,408 were improper. Based on our sample
results, we estimate that, within the audit population, approximately 317 payment
transactions totaling about $3,840,307 were improper.

              Projection of Improper Payment Transactions in Population
                Improper Payments in Sample               Improper Payments in Population
  Group          Number     Dollar Amount                   Number       Dollar Amount
  Group 1:          5        $142,768                         10            $285,536
  Group 2:         10        $115,640                        307          $3,554,771
     Total         15        $258,408                        317          $3,840,307

UNSUPPORTED PAYMENTS
Group 1 – Confinement and Release Dates Matched

Of the 50 payment transactions in our sample, 22 payment transactions totaling
$362,322 were unsupported. Employing a straight-line estimation methodology,
we estimate that, within this group, approximately 44 payment transactions
totaling about $724,644 were unsupported.

Group 2 – Confinement and Release Dates did not Match

Of the 50 payment transactions in our sample, 14 transactions totaling $186,866
were unsupported. Based on our sample results, we estimate that, within this
group, approximately 430 payments totaling $5,744,270 were unsupported.

                                                                Number of         Dollar
                 Unsupported Payments
                                                               Transactions      Amount
 Identified in Sample                                               14           $186,866
 Projection of Unsupported Payments in Population:
 Point Estimate                                                       430      $5,744,270
 Projection at Lower Limit                                            276      $3,527,772
 Projection at Upper Limit                                            615      $7,960,768
All projections are at the 90-percent confidence level.



                                                C-2
Summary – Unsupported Payments

Of the 100 payment transaction sample items reviewed from both groups,
36 payment transactions totaling $549,188 were not supported. Based on our
sample results, we estimated that, within the audit population, approximately
474 payment transactions totaling about $6,468,914 were unsupported.

         Projection of Unsupported Payment Transactions in Population
             Improper Payments in Sample     Improper Payments in Population
  Group       Number     Dollar Amount         Number       Dollar Amount
  Group 1:      22        $362,322               44            $724,644
  Group 2:      14        $186,866              430          $5,744,270
     Total      36        $549,188              474          $6,468,914




                                      C-3
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY


MEMORANDUM


Date:      July 7, 2010                                                            Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor
             to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Retroactive Title II Payments to Released
           Prisoner” (A-06-08-38081)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                           D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “RETROACTIVE TITLE II PAYMENTS TO RELEASED PRISONERS”
A-06-08-38081

Thank you for the opportunity to review the subject draft report. We generally agree with your
findings and recommendations and offer the following comments:

Recommendation 1

Take appropriate action (suspend benefits, recover improper payments, or refer potential
instances of fraud to the Office of Investigations) for the 15 retroactive payments determined to
be improper.

Comment

We agree and we will take appropriate actions by the end of the calendar year. In addition, we
will also review the 36 cases you document in your report that we released “unsupported
retroactive payments to released prisoners,” and take corrective actions where appropriate.

Recommendation 2

Establish controls to ensure employees explain and justify large retroactive payments issued to
released prisoners. At a minimum, SSA employees should document circumstances that resulted
in the underpayment, describe evidence reviewed or obtained to substantiate beneficiary
assertions, and provide detailed information indicating how the payment amount was computed.

Comment

We agree. We will develop and implement additional procedural controls that will instruct our
employees to explain, justify, and document the circumstances surrounding all retroactive
payments to released prisoners. We will also explore possible systems’ controls and implement
them as information technology resources become available.

Recommendation 3

Establish a payment threshold amount above which an SSA employee must obtain supervisory
approval before issuing the large retroactive payment.

Comment

We partially agree. We will establish an appropriate monetary threshold and require secondary
approval for all retroactive payments exceeding that amount. Instead of supervisory approval as
you suggest, we will require technical expert approval for this activity.


[In addition to the information listed above, SSA also provided additional comments,
which were incorporated in the report where appropriate.]



                                               D-2
                                                                        Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division

   Jason Arrington, Audit Manager

Acknowledgments

In addition to those named above:

   Teresa Williams, Senior Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-06-08-38081.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
